           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



          ASSIGNMENT OF
    SOCIAL SECURITY NUMBERS
    TO J-1 EXCHANGE VISITORS

    July 2007     A-08-07-17076




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                          SOCIAL SECURITY
MEMORANDUM

Date:      July 20, 2007                                                                Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Assignment of Social Security Numbers to J-1 Exchange Visitors (A-08-07-17076)


           OBJECTIVE

           Our objective was to assess the Social Security Administration’s (SSA) process for
           assigning Social Security numbers (SSN) to J-1 exchange visitors.

           BACKGROUND
           Through the Exchange Visitor Program, administered by the Department of State,
           foreign nationals may visit the United States under a J-1 visa to work and travel. The
           Exchange Visitor Program has 13 program categories. We focused on the camp
           counselor and summer work/travel categories, the participants of which are generally
           permitted to stay in the United States for a maximum of 4 months. 1 For purposes of
           this report, we use the term “exchange visitors” to refer to individuals in these two
           categories. Designated sponsoring organizations facilitate their entry into the
           United States to complete their program objectives. At the conclusion of their program,
           participants are expected to return to their home countries.

           Through the summer work/travel program, foreign post-secondary students may enter
           the United States to work and travel during their summer vacations. Participants
           typically work in non-skilled service positions at resorts, hotels, restaurants, and
           amusement parks. Through the camp counselor program, foreign university students,
           youth workers, and other specially qualified individuals at least 18 years of age and
           proficient in English may work as counselors in U.S. summer camps. 2 While SSA data
           do not identify in which of the 13 J-1 programs SSN applicants entered the


           1
            Mutual Educational and Cultural Exchange Act of 1961, Public Law 87-256, as amended,
           22 United States Code (U.S.C.) § 2451 et seq.
           2
            Regulations governing the summer work/travel and camp counselor programs are found at
           22 Code of Federal Regulations (C.F.R.) § 62.32 and 22 C.F.R. § 62.30, respectively.
Page 2 – The Commissioner


United States, we estimated that SSA assigned about 100,000 SSNs in Calendar
Year 2005 to exchange visitors in the summer work/travel (75,000 participants) and
                                                 3
camp counselor (25,000 participants) categories.

Because exchange visitors are authorized to work in the United States, they are eligible
for SSNs. Exchange visitors applying for an original SSN must complete, sign and
submit an Application for a Social Security Card (Form SS-5) at an SSA field office and
provide acceptable evidence of (1) age, (2) identity, (3) and work-authorized
immigration status. 4 SSA policy requires that field office personnel verify the exchange
visitor’s status and immigration information with the Department of Homeland Security
(DHS) before completing the SSN application. Wages and other compensation paid to
exchange visitors for services performed as an employee are usually subject to tax
                                                                    5
withholding at the same rates as resident aliens and U.S. citizens. However,
exchange visitors are exempt from Social Security taxes. 6

To accomplish our objective, we reviewed SSA’s policies and procedures for assigning
original SSNs to exchange visitors and interviewed representatives from SSA’s Offices
of Public Service and Operations Support and Income Security Programs. We visited
six field offices in four regions to discuss their procedures for processing SSN
applications from exchange visitors. We also visited selected summer camps and
employers in the areas serviced by these field offices and interviewed officials
responsible for hiring exchange visitors. Additionally, we contacted several camp
organizations and met with representatives of international cultural exchange
organizations to obtain their experiences with exchange visitors. To discuss alternative
ways of reporting wage and tax information, we interviewed officials from the Internal
Revenue Service (IRS). Appendix B includes a detailed description of our scope and
methodology.




3
  We based this estimate on evidence recorded by SSA field office staff during the SSN application
process and from discussions with employers and international cultural exchange organizations. Field
office staff enters SSN applicant information into SSA’s Modernized Enumeration System (MES), which
includes nonimmigrants’ classification codes (for example, “J-1.”) However, MES does not capture the
camp counselor or summer work/travel program sub-categories. Nevertheless, we searched MES text
fields for key phrases like “camp,” “counselor,” or sponsor organization names.
4
 SSA’s policies and procedures for assigning original SSN cards, including to J-1 exchange visitors, are
set forth in regulation at 20 C.F.R. 422.104-107 and in its Program Operations Manual System (POMS),
section RM 00203.480.
5
    IRS Publication 519, U.S. Tax Guide for Aliens.
6
    Section 210(a)(19) of the Social Security Act and 20 C.F.R. § 404.1036(b).
Page 3 – The Commissioner


RESULTS OF REVIEW
Based on our interviews with employers, international cultural exchange organizations,
and SSA personnel, we are concerned about SSA’s assignment of SSNs to exchange
visitors. We question whether exchange visitors who can work and travel in the United
States for a maximum of 4 months should be assigned SSNs that are valid for life. In
addition, exchange visitors are exempt from Social Security taxes.

While we recognize current law allows exchange visitors to obtain an SSN, we believe
this practice creates opportunities for potential SSN misuse. For example, an SSN
makes it easier for exchange visitors to remain in the country and continue working
after their immigration status expires, which weakens SSN integrity and could affect
homeland security. 7 In addition, some exchange visitors leave their employer or return
to their home country before receiving their SSN card, thus increasing the potential for
dishonest individuals to obtain and misuse these cards. Further, some of the
employers and field office personnel with whom we spoke stated that exchange visitors
who receive their SSN cards do not always recognize their value and therefore do not
adequately safeguard them—often misplacing the cards and requesting replacements.
For these reasons, employers, international cultural exchange organizations, and field
office personnel we interviewed questioned the assignment of SSNs to exchange
visitors and shared our concerns about the potential for SSN misuse and identity theft.

We believe SSA can reduce the risk of SSN misuse by considering alternatives to
assigning SSNs to exchange visitors. One alternative could include the potential for the
                                                                                  8
IRS to issue exchange visitors Individual Taxpayer Identification Numbers (ITIN). We
recognize any potential alternatives will require changes to existing SSA and IRS
policies and may necessitate legislative and regulatory remedies. However, existing
policies and regulations should not detract SSA from working with the IRS to explore
alternatives to assigning SSNs to exchange visitors while reducing opportunities for
SSN misuse. Because the subject of this report involves possible legislative and policy
changes for IRS, we plan to share a copy of this report with the U.S. Treasury Inspector
General for Tax Administration.




7
  In our September 2005 report, Impact of Nonimmigrants Who Continue Working After Their Immigration
Status Expires (A-08-05-15073), we estimated that thousands of nonimmigrants continued working after
their immigration status expired. This report focused on all nonimmigrants and did not specifically discuss
exchange visitors.
8
 IRS issues ITINs to foreign nationals and others who have Federal tax reporting or filing requirements
and do not qualify for SSNs.
Page 4 – The Commissioner


ASSIGNMENT OF SSNs TO EXCHANGE VISITORS CREATES OPPORTUNITIES
FOR SSN MISUSE

Some employers, international cultural exchange organizations and camp directors
acknowledged that having an SSN makes it easier for exchange visitors to remain in
the country and continue working after their immigration status expires. International
cultural exchange organization representatives stated that exchange visitors from
Eastern European countries are more likely to overstay their visas. In fact, the
Government Accountability Office estimated that about one in four exchange visitors it
reviewed from a Foreign Service post in the former Soviet Union had potentially
                        9
overstayed their visas. Furthermore, some employers acknowledged the potential for
exchange visitors to use the work/travel program simply as a means of obtaining an
SSN. For example, 1 employer told us that 28 of 143 (about 20 percent) exchange
visitors hired last summer left shortly after receiving their SSN cards. This example
provides evidence of the SSN’s importance, especially to noncitizens who plan to
overstay their visas or allow others to use their SSNs to work.

Unauthorized work by nonimmigrants weakens SSN integrity and may require that the
Agency pay future benefits to these individuals. 10 In addition, nonimmigrants who
overstay their authorized periods of admission can potentially affect homeland security
because they may obtain employment in sensitive areas, such as airports, hospitals, or
mass transit systems.

Some exchange visitors leave their employer or return to their home country before
receiving their SSN cards, thus increasing the potential for dishonest individuals to
obtain and misuse these cards. Employers, international cultural exchange
organizations and camp directors told us they are unsure how to handle these SSN
cards. Employers and camp directors told us they forward the SSN cards overseas or
to other addresses in the United States, some keep the cards, and some return them to
local field offices. The following examples illustrate SSA’s exposure to potential SSN
misuse.

•    One employer told us they had about 1,000 SSN cards for exchange visitors who
     returned to their home country before receiving their cards. The employer told us
     they typically keep SSN cards for 2 years and then return them to the local field
     office if the exchange visitor does not return for employment.

•    An employer showed us a stack of SSN cards they received after exchange visitors
     had left the employer or returned home. The employer told us they planned to
     forward these SSN cards overseas or to other addresses in the United States.

9
 State Department: Stronger Action Needed to Improve Oversight and Assess Risks of the Summer Work
Travel and Trainee Categories of the Exchange Visitor Program (GA0-06-106, October 2005).
10
  POMS, section RS 01901.740.C, states that unauthorized work by exchange visitors is covered for
Social Security purposes, unless excluded by some other provision of law under Section 210 of the Social
Security Act.
Page 5 – The Commissioner


•     One international cultural exchange representative told us he did not know what to
      do with SSN cards for exchange visitors who had returned to their home country, so
      he threw the cards in the trash.

We do not believe employers and camp directors should forward SSN cards to foreign
countries, keep them for extended periods of time, or throw them in the trash. We
encouraged field office personnel to instruct employers and camp directors to return
SSN cards to local field offices when they arrive after exchange visitors’ departures.

Exchange visitors may create other opportunities for SSN misuse when they receive
their SSN cards and do not adequately safeguard them. For example, some employers
and camp directors told us it is not unusual for exchange visitors to lose their SSN
cards. This problem not only increases the risk of identity theft but may also require
that SSA issue replacement cards. Employers and camp directors attributed lost SSN
cards to exchange visitors’ failure to realize the importance of protecting their cards.
Furthermore, some employers, international cultural exchange organizations and camp
directors acknowledged the potential for exchange visitors to allow other individuals to
use their SSNs to work.

Field office personnel with whom we spoke acknowledged that assignment of SSNs to
exchange visitors creates opportunities for SSN misuse. They stated that having an
SSN card makes it easier for exchange visitors to remain in the country and continue
working after their immigration status expires. They also confirmed that some
exchange visitors return to their home countries or leave their employers before
receiving their SSN cards, and others lose their cards, which may require that SSA
issue replacement SSN cards. These vulnerabilities, coupled with the short time
exchange visitors can legally stay in the United States, caused SSA employees to
question whether SSA should assign SSNs to exchange visitors.

OPPORTUNITY FOR SSA TO REDUCE ITS RISK OF SSN MISUSE

We believe SSA has an opportunity to reduce the risk of SSN misuse by considering
alternatives to assigning SSNs to exchange visitors. We recognize any potential
alternatives will require changes to existing law and SSA and IRS policies. However,
existing law and regulations should not detract SSA from working with the IRS to
explore alternatives to assigning SSNs to exchange visitors while reducing opportunities
for SSN misuse.

One alternative could include the potential for the IRS to issue ITINs to exchange
visitors. Under current law, ITINs are only used for Federal income tax purposes and
are available to individuals who do not qualify for SSNs. 11 Additionally, the IRS
generally issues ITINs at the end of the year in conjunction with tax returns. Given the
unique status of exchange visitors, we believe SSA could work with the IRS to grant
exceptions to such individuals. That is, if SSA stopped assigning SSNs to exchange

11
     26 C.F.R. § 301.6109-1(d)(3)(i) and (ii) and IRS Publication 15 (Circular E), Employer’s Tax Guide.
Page 6 – The Commissioner


visitors, the IRS could issue them ITINs and allow employers to report wages under
those numbers. SSA, in conjunction with the IRS, should develop a process to identify
exchange visitors’ earnings to prevent wages from being placed in SSA’s Earnings
Suspense File. 12

IRS ITIN program officials told us they believed any obstacles could be remedied by
policy and/or legislative changes, thus allowing the IRS to issue ITINs to exchange
visitors if SSA stopped assigning them SSNs. Field office personnel recognized the
need for SSA and the IRS to work together to develop alternatives to assigning SSNs to
exchange visitors.

CONCLUSION AND RECOMMENDATIONS
We question whether exchange visitors who can work and travel in the United States
for a maximum of 4 months should be assigned SSNs that are valid for life. In addition,
exchange visitors are exempt from Social Security taxes. We recognize SSA cannot
address this issue alone. However, we believe SSA should work with the IRS to
develop alternatives to assigning SSNs to exchange visitors. Ultimately, the success of
SSA’s efforts will depend on how successful it is in obtaining assistance and support
from the IRS.

Accordingly, we recommend that SSA:

1. Work with the IRS to develop alternatives to assigning SSNs to summer work/travel
   and camp counselor exchange visitors. This could include the potential for the IRS
   to issue ITINs to these individuals.

2. Until an alternative to SSN assignment is developed, instruct employers, camp
   directors, and international cultural exchange organizations to return SSN cards to
   local field offices when cards arrive after exchange visitors’ departure.

AGENCY COMMENTS AND OIG RESPONSE

We believe SSA’s response and planned actions adequately address
Recommendation 2. However, we believe SSA’s response to Recommendation 1 does
not effectively address our concern that assignment of SSNs to exchange visitors
creates opportunities for potential SSN misuse. Moreover, we question whether
exchange visitors who can work and travel in the United States for a maximum of
4 months and are exempt from Social Security taxes should be assigned SSNs that are
valid for life. Given SSA’s commitment to SSN integrity, we continue to believe the
Agency should work with the IRS to develop alternatives to assigning SSNs to summer
work/travel and camp counselor exchange visitors.


12
  SSA places wages that fail to match name and SSN records in its Earnings Suspense File. Additionally,
currently, SSA places all wages reported under ITINs in the Earnings Suspense File.
Page 7 – The Commissioner


Regarding SSA’s response to Recommendation 1, we acknowledge that we did not
identify any specific evidence of fraud, waste or abuse in SSA programs. However, we
believe our audit demonstrated that assignment of SSNs to exchange visitors creates
opportunities for SSN misuse. As discussed in the report, some exchange visitors may
(1) use the work/travel program simply as a means of obtaining an SSN; (2) leave their
employer or return to their home country before receiving their SSN card, thus
increasing the potential for dishonest individuals to obtain and misuse these cards; and
(3) not adequately safeguard SSN cards—often misplacing them and requesting
replacements.

These reasons, coupled with the short time exchange visitors can legally stay in the
United States, caused camp directors, international cultural exchange organizations,
and SSA personnel we interviewed to question the assignment of SSNs to exchange
visitors and share our concerns about the potential for SSN misuse and identity theft.
In fact, we did not interview anyone during our audit who told us SSA should continue
assigning SSNs to exchange visitors. As such, we encourage SSA reconsider its
response to Recommendation 1.

SSA also provided technical comments that we considered and incorporated, where
appropriate. SSA’s comments are included in Appendix C.




                                                   Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Agency Comments

APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                     Appendix A

Acronyms
C.F.R.   Code of Federal Regulations
DHS      Department of Homeland Security
ITIN     Individual Taxpayer Identification Number
IRS      Internal Revenue Service
POMS     Program Operations Manual System
SSA      Social Security Administration
SSN      Social Security Number
U.S.C.   United States Code
                                                                      Appendix B

Scope and Methodology
To achieve our objective, we

•   Reviewed applicable Federal laws, regulations, and Social Security Administration
    (SSA) policies and procedures for assigning original Social Security numbers (SSN)
    to exchange visitors.

•   Interviewed representatives from SSA’s Offices of Public Service and Operations
    Support and Income Security Programs.

•   Obtained a data extract from SSA’s Modernized Enumeration System Transaction
    History File for the period April through December 2005, in which we identified and
    analyzed SSNs assigned to exchange visitors. Field office staff enters SSN
    applicant information into SSA’s Modernized Enumeration System, which includes
    nonimmigrant classification codes (for example, “J-1.”) However, Modernized
    Enumeration System does not capture the camp counselor or summer work/travel
    subcategories for SSN applicants. Nevertheless, we searched Modernized
    Enumeration System text fields for key phrases like “camp,” “counselor,” or known
    sponsor organization names. Using the results of this search and information we
    obtained from our discussions with employers and sponsoring organizations, we
    estimated the number of J-1 exchange visitors.

•   Visited six SSA field offices in Massachusetts, Colorado, Nevada, and Florida. We
    selected these offices because they were among the top offices in terms of
    processing exchange visitor SSN applications and because of their geographic
    location. At each field office, we interviewed management and staff about their
    procedures and experiences with processing exchange visitor SSN applications.

•   Visited six summer camps in Massachusetts. At each camp, we interviewed
    responsible officials about the number of camp counselors hired, how and when
    counselors applied for SSNs, the length of time it took to receive SSN cards, and
    any problems they had experienced with the program. We also contacted several
    camp organizations to obtain their experiences with exchange visitors and their
    efforts to help them obtain SSNs.

•   Met with international cultural exchange organization representatives to discuss their
    experiences with exchange visitors.

•   Visited nine large employers of summer work/travel participants in Alabama,
    Colorado, Nevada, and Florida and contacted one employer by telephone.




                                           B-1
•   Interviewed Internal Revenue Service Individual Taxpayer Identification Number
    program officials regarding wage and tax-related issues.

Because we were unable to firmly establish a universe of J-1 exchange visitors
participating in the camp counselor and summer work/travel programs to whom SSA
assigned SSNs, we were unable to select and review a sample of these SSNs and
determine whether the individuals (1) earned wages during their programs;
(2) continued to earn wages after their programs and visas expired; and
(3) appropriately departed the United States and returned to their home countries. As
such, our results are based on discussions with knowledgeable employers,
organizations and SSA personnel as well our own observations.

The SSA entity reviewed was the Office of the Deputy Commissioner for Operations.
We relied primarily on Modernized Enumeration System data to complete our review
and determined the data used in the report were sufficiently reliable given the audit
objective and use of the data. We conducted our work from August 2006 through
March 2007 in accordance with generally accepted government auditing standards.




                                          B-2
                  Appendix C

Agency Comments
                                 SOCIAL SECURITY

MEMORANDUM


Date:      July 09, 2007                                               Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      David V. Foster        /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) OIG Draft Report, "Assignment of Social
           Security Numbers to J-1 Exchange Visitors" (A-08-07-17076)--INFORMATION


We appreciate OIG’s efforts in conducting this review. Our comments on the draft report’s
content and recommendations are attached.

Please let me know if we can be of further assistance. Staff inquiries may be directed to
Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.

Attachment:
SSA Response




                                              C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "ASSIGNMENT OF SOCIAL SECURITY NUMBERS TO J-1 EXCHANGE
VISITORS" (A-08-07-17076)


Thank you for the opportunity to review and comment on the draft report. The Social Security
Administration (SSA) appreciates the complexities involved in any discussion regarding the
enumeration process for J-1 exchange visitors, specifically the summer work/travel participants
and camp counselors who are in the United States for only a short period of time. SSA is
required to assign Social Security numbers (SSN) to exchange visitors under the Social Security
Act, section 205(c)(2)(B)(i), and regulations, 20 C.F. R. 422.104. We take seriously our
responsibility to ensure the integrity of SSNs and to safeguard SSN cards. The policies we have
in place are designed to ensure that SSA issues SSN cards only to those individuals who are truly
eligible to receive them. Therefore, we are pleased that OIG did not find any evidence that
demonstrated either a lack of enforcement of the Social Security Act or immigration laws, nor
did OIG identify any fraud, waste or abuse in the administration of SSA programs.

Our comments to the specific recommendations are provided below. We are also providing
some technical comments.

Recommendation 1

SSA should work with the Internal Revenue Service (IRS) to develop alternatives to assigning
SSNs to summer work/travel and camp counselor exchange visitors. This could include the
potential for the IRS to issue Individual Taxpayer Identification numbers (ITIN) to these
individuals.

Response

We disagree. We do not believe that we should pursue a significant change in the law and
related policies when OIG has not found evidence of fraud, waste or abuse within SSA programs.
As noted above, SSA is required to assign SSNs to exchange visitors under the Social Security
Act, Section 205(c)(2)(B)(i), and regulations, 20 C.F. R. 422.104.

In addition to the legal requirement to assign SSNs to these individuals, changing the way SSA
enumerates individuals under just 2 of the 13 types of possible J-1 exchange visas would create
inconsistencies within our policy regarding J-1 visas. Moreover, SSA assigns SSNs for other
categories of work-authorized nonimmigrants, some covered by Social Security programs and
some noncovered, all of which are eligible for an SSN under current law.

Finally, due to the ongoing immigration reform debate, a piecemeal approach to address the
problem of visa overstayers may not be productive. This issue should instead be addressed
holistically in the context of the pending immigration reform.




                                               C-2
Recommendation 2

Until an alternative to SSN assignment is developed, instruct employers, camp directors, and
international cultural exchange organizations to return SSN cards to local field offices when
cards arrive after exchange visitors’ departure.

Response

We agree. SSA procedures in the Program Operations Manual System (POMS) RM 00201.080
currently address how to handle undeliverable SSN cards. We agree that providing information
to employers, camp directors and international cultural exchange organizations about the
importance of safeguarding exchange visitors’ SSN cards and returning unclaimed cards to SSA
offices will minimize opportunities for SSN card misuse. We will add information to POMS
within 60 days to alert the field offices to the necessity of communicating this message to
employers and camp directors in their local areas. We will also add information addressing this
matter to the SSA website and coordinate with the Department of State and the Department of
Homeland Security to make this information available to both J-1 exchange visitors and to
international cultural exchange organizations.




                                               C-3
                                                                     Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director, 205-801-1650

   Jeff Pounds, Audit Manager, 205-801-1606

Acknowledgments

In addition to those named above:

   Charles Lober, Auditor in Charge

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-08-07-17076.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
